The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
Chairman




              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436

                                          May 31, 2011




Message from the Chairman

In accordance with the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 (“the IG
Act”), the U.S. International Trade Commission (“USITC” or “Commission”) hereby transmits
the Semiannual Report of the USITC Inspector General for the period October 1, 2010 to March
31, 2011.

The Commission appreciates the work done by the Office of Inspector General (“OIG”) in
assuring the effectiveness, efficiency, and integrity of Commission programs and operations.
Inspector General Philip M. Heneghan and his staff have provided invaluable assistance to the
Commission during the past few months. We look forward to continuing to work with Mr.
Heneghan as we address the issues raised in his report.

The Inspector General’s Semiannual Report identifies the top management and performance
challenges that require significant attention from the USITC in FY 2011. The Commission
concurs with the critical challenges identified by the Inspector General. We continue our efforts
to address these challenges to ensure that our internal operations are well managed. We believe
that the corrective action plans we have in place will answer the challenges identified by the
Inspector General, and we already have completed a number of these corrective actions.

The actions we are taking to address our challenges are summarized in the following three
sections: (1) internal control, (2) financial management, and (3) information technology security.
I will then address the status of actions on Inspector General Recommendations.




                                                1
Management and Performance Challenges

1.     Internal Control

During the reporting period, the Commission: (1) designed and implemented a comprehensive
financial management internal control system that complies with applicable laws and regulations
to ensure that the objectives of the Federal Managers’ Financial Integrity Act are achieved and
documented; and (2) provided temporary staffing of the management position related to the new
internal control system/internal control program. Therefore, we have begun to document
consistent processes and procedures agency-wide. The Commission has begun to test the new
system to ensure that the system is adequate, and the Commission will modify it as needed.

2.     Financial Management

As a result of the disclaimer on its fiscal year (FY) 2009 financial statements, the Commission
has recognized the importance and necessity of instituting a system of stronger internal controls
over financial management and implemented corrective actions to address many of the financial
management weaknesses identified. As a result of these actions, the independent auditor issued a
qualified opinion on the Commission’s FY 2010 financial statements.

While this opinion is a significant improvement from last year, we recognize that we have much
more to do to ensure that we efficiently manage the resources entrusted to us. In order to address
these deficiencies, the Commission intends to establish a new financial management structure
and hire or train staff with requisite high-level analytical and communication skills. The
Commission has requested from the Office of Personnel Management (“OPM”) an out-cycle
Senior Executive Service allocation for a Chief Financial Officer. In June, the Commission will
transmit to Congress its advance notice of pending organizational changes pursuant to the
Consolidated Appropriations Act, 2010. Pub. L. 111-117, div. B, tit. V, §505(a), 123 Stat. 3034,
(December 16, 2009). This reorganization should ensure transparency and accountability in the
formulation, execution, performance, and management of agency financial resources.

3.     Information Technology Security

Maintaining the security of the Commission’s information technology (IT) infrastructure is a top
priority as information technology is integral to the Commission’s operations. In order to
address the deficiencies identified, the Commission has focused resources toward continuity of
operation efforts and the CIO has focused his priorities on risk assessment of the Commission’s
information security operations.




                                                2
The Report notes that the Commission has not completed final action on three recommendations
dating back to 2005 concerning the Commission’s plans for continuity of operations (COOP).
The Commission has a plan to complete final action on these recommendations in the near term.

To address this deficiency, the Commission is evaluating moving most of its technology
footprint to a hosted service from a third-party provider. The Commission recently approved a
move toward a hosted e-mail solution, where the agency subscribes to an e-mail service. A
hosted solution satisfies continuity requirements for the Commission’s most crucial
communications system. In the event of an emergency in the region, the Commission would be
able to communicate within the agency and to external customers and organizations. The
Commission intends to migrate its e-mail system during the current reporting period and
consider other solutions thereafter.

Actions on Inspector General Recommendations

Management decisions were made on 57 of 62 recommendations that the Inspector General
made during this period. The final report on the FOIA Program was issued on March 14, 2011.
Management issued its decisions to address those recommendations on April 13, 2011.
Management decisions have been made and final actions completed for all recommendations
made in prior periods, except for the three recommendations related to COOP planning discussed
in section 3 above. The statistical tables required under the IG Act are included as Appendix A
to this report.

Actions on External Reviews

Three external reviews were conducted or completed by different oversight agencies during the
reporting period. These reviews included a review by the OPM of delegated examining authority,
a review by the U.S. Equal Employment Opportunity Commission (“EEOC”) of the
Commission’s EEO program, and an audit by the U.S. Government Accountability Office
(“GAO”) on the role of the Inspector General at the Commission. The Commission currently is
developing management decisions addressing both the OPM and EEOC recommendations.

The GAO report, Inspectors General: Continued Actions Needed to Strengthen IG Oversight of
the United States International Trade Commission, report number GAO-11-5, was issued in
October 2010. The report identified three issues affecting the Office of Inspector General:
independence concerns, inadequate staffing and budget, and inability to gain access to records.
It was never the Commission’s intention to have a vacancy in the permanent Inspector General
position for such a long period of time, and we regret that various events delayed the hiring of a
permanent Inspector General. The Commission recognizes that the lack of an active and
permanent Inspector General contributed to the issues identified in the GAO report.




                                                 3
Almost two years ago, the Commission began to institute corrective actions. The Commission
hired a permanent Inspector General in December 2009. In order to address the three issues
identified by GAO, the Commission has worked with the Inspector General to ensure his
independence, approved staffing and budget requests by the Inspector General, and addressed
OIG access and custody of Commission records and OIG notification of possible criminal
violations. The Commission is dedicated to ensuring a strong and independent Inspector General
and is implementing all of GAO’s recommendations to address the three reported concerns.




Deanna Tanner Okun
Chairman




                                              4
OFFICE OF INSPECTOR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, DC 20436


April 29, 2011                                                     OIG-JJ-007

Commissioners:

Attached is the Semiannual Report summarizing the activities of the Office of Inspector
General (OIG) for the period October 1, 2010 to March 31, 2011.

During this period, we issued 9 reports and made 62 recommendations to improve the
Commission’s operations and strengthen internal controls. In addition, three external
reviews were conducted by different oversight agencies. These reviews included a
review by the OPM of delegated examining authority, a review by the EEOC of the
Commission’s EEO program, and an audit by the GAO on the role of the Inspector
General at the Commission.

The GAO report, Continued Actions Needed to Strengthen IG Oversight of the United
States International Trade Commission, was issued in October 2010 and reviewed
activities of the Office of Inspector General for the five-year period 2005-2009. The
report identified three issues affecting the Office of Inspector General: independence
concerns, inadequate staffing and budget, and inability to gain access to records. The
report cited the lack of an appointed Inspector General for more than four years as a root
cause of the problem. The report acknowledged the appointment of a permanent
Inspector General (in December 2009) and other steps that the Commission was taking to
strengthen the OIG at the USITC as positive movements toward addressing the three
reported concerns.

I would like to thank you for your commitment to improving the operations of the
Commission and the support for my office. During this reporting period, the
Commission completed final action on 43 of the 62 recommendations issued during this
period and 15 of the 18 open recommendations from prior reporting periods.



Philip M. Heneghan
Inspector General
                    U.S. International Trade Commission
                                 Inspector General Semiannual Report


                                          TABLE OF CONTENTS


Office of Inspector General.............................................................................................. 1

Semiannual Report Requirements .................................................................................. 1

Top Management and Performance Challenges............................................................ 1
  1. Internal Control.......................................................................................................... 2
  2. Financial Management............................................................................................... 2
  3. Information Technology Security .............................................................................. 3

Inspector General Reports Issued this Period................................................................ 3
  Independent Auditor’s Report on 2010 Financial Statements, OIG-AR-11-02 ............. 4
  Independent Auditor’s Report on Internal Control for 2010 Financial Statements,
    OIG-AR-11-03............................................................................................................. 5
  Independent Auditor’s Report on Compliance with Laws and Regulations for 2010
    Financial Statements, OIG-AR-11-04 ......................................................................... 5
  Management Letter for 2010 Financial Statements, OIG-ML-11-06............................. 6
  FISMA Cyberscope Fiscal Year 2010 Submission, OIG-MR-11-05 ............................. 6
  Audit of the Perimeter Network Security, OIG-AR-11-01............................................. 7
  Audit of Electronic Document Information System (EDIS) Security, OIG-AR-11-07.. 8
  Audit of Freedom of Information Act Program, OIG-AR-11-08 ................................... 8
  USITC Management and Performance Challenges, OIG-MR-11-09............................. 9

Significant Recommendations from Prior Periods ........................................................ 9

External Reviews Completed During This Period....................................................... 10
  General Accountability Office (GAO) – Review of Inspector General Oversight of
    the Commission ......................................................................................................... 10
  Office of Personnel Management – Delegated Examining Operations ........................ 11
  U.S. Equal Employment Opportunity Commission – EEO Program Review.............. 12

Status of Actions Related to External Reviews Completed During Prior Periods ... 13
  Office of Personnel Management – Human Resources Review ................................... 13
  Office of Personnel Management – Personnel Security and Suitability Program ........ 13

Council on Inspectors General for Integrity and Efficiency Activities...................... 14

Federal Financial Management Improvement Act Reporting ................................... 14

Peer Review ..................................................................................................................... 14

Tables and Charts
  Table 1: Reporting Requirements Index ...................................................................... iii

                                                                 i
                               Report Period: October 1, 2010 through March 31, 2011
                U.S. International Trade Commission
                             Inspector General Semiannual Report

   Table 2:   Management and Performance Challenges ..................................................... 2
   Table 3:   Reports by Subject Matter ............................................................................... 4
   Table 4:   Significant Recommendations from Prior Reports........................................ 15
   Table 5:   Reports with Questioned or Unsupported Costs............................................ 15
   Table 6:   Reports with Recommendations that Funds be Put to Better Use ................. 16
   Table 7:   Status of Reports Issued w/out Final Action ................................................. 17


Appendices
  Appendix A: Chairman’s Statistical Tables............................................................... A-1




                                                          ii
                          Report Period: October 1, 2010 through March 31, 2011
          U.S. International Trade Commission
                     Inspector General Semiannual Report

                        Table 1: Reporting Requirements Index



                         Reporting Requirements Index

   IG Act                                 Description                       Page
Section 4(a)(2)      Review of Legislation                                  None
                     Description of Significant Problems, Abuses, and
Section 5(a)(1)                                                             1-3
                     Deficiencies
                     Description of Recommendations for Corrective
Section 5(a)(2)      Action with Respect to Significant Problems, Abuses,   1-9
                     and Deficiencies
                     Significant Recommendations From Prior Reports on
Section 5(a)(3)                                                             9, 15
                     Which Corrective Action Has Not Been Completed
                     A Summary of Matters Referred to Prosecuting
Section 5(a)(4)                                                             None
                     Authorities
                     Summary of Instances Where Information or
Section 5(a)(5)                                                             None
                     Assistance was Unreasonably Refused
                     Listing by Subject Matter of each Report Issued
Section 5(a)(6)                                                              4
                     during this Reporting Period
Section 5(a)(7)      Summary of Significant Reports                         3-9
                     Statistical Table showing Questioned and
Section 5(a)(8)                                                              15
                     Unsupported Costs
                     Statistical Table showing Recommendations Where
Section 5(a)(9)                                                              16
                     Funds Could be Put to Better Use
                     Summary of Audit Reports Issued Before the Start of
Section 5(a)(10)     the Reporting Period for Which no Management           None
                     Decision Has Been Made
                     Description of Any Significant Revised Management
Section 5(a)(11)                                                            None
                     Decisions
                     Information Concerning any Significant Management
Section 5(a)(12)
                     Decision with Which the Inspector General is in        None
                     Disagreement
Section 5(a)(13)     Information described under section 5(b) of FFMIA       14
                     Results of Peer Review Completed During This
Section 5(a)(14)                                                             14
                     Period or Date of Last Peer Review
                     List of Any Outstanding Recommendations From
Section 5(a)(15)                                                             14
                     Peer Review
                     List of any Peer Reviews Conducted of Another
Section 5(a)(16)                                                             14
                     Office of Inspector General During this Period




                                            iii
                   Report Period: October 1, 2010 through March 31, 2011
              U.S. International Trade Commission
                       Inspector General Semiannual Report


                          Office of Inspector General
The U.S. International Trade Commission established the Office of Inspector General
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The Inspector
General provides audit, evaluation, inspection, and investigative services covering all
Commission programs and operations. The mission of the Inspector General is to
promote and preserve the effectiveness, efficiency, and integrity of the Commission. The
Office of Inspector General’s activities are planned and conducted based on requirements
of laws and regulations, requests from management officials, allegations received from
Commission personnel and other sources, and the Office of Inspector General’s initiative.



                     Semiannual Report Requirements
The IG Act requires each Inspector General to prepare a Semiannual Report that
summarizes the activities of the office; this report covers the period from October 1, 2010
through March 31, 2011. The fourteen requirements, shown in Table 1, are specified in
the IG Act and must be included in the report. The layout of this Semiannual Report is
described in the next paragraph.

This Semiannual Report starts with a description of the Management Challenges Report,
OIG-MR-09-11, which identified the three most significant management challenges
facing the Commission. Then it summarizes the results of the remaining eight reports
issued during this period, describes significant recommendations from prior reports
which have not received corrective action, and summarizes the reviews conducted by
external parties related to the Commission and the Office of Inspector General. The last
sections supply information on other reportable activities such as, participation in the
Council on Inspectors General for Integrity and Efficiency, and compliance activities.
Additional tables at the end of the report detail statistics on Office of Inspector General
reports and recommendations



           Top Management and Performance Challenges
The Inspector General is required by statute to identify the most significant management
and performance challenges facing the Commission in the coming year. The Inspector
General provided the Commission with a report, OIG-MR-09-11, on October 15, 2010.
The report identified the challenges based on information learned from audit and
inspection work, a general knowledge of the Commission’s programs and activities, and
input from management regarding challenges facing the agency and efforts the agency
has taken to address them. The management and performance challenges identified by
the Office of Inspector General include the three areas identified in Table 2.
                                             1
                     Report Period: October 1, 2010 through March 31, 2011
              U.S. International Trade Commission
                        Inspector General Semiannual Report


                      Table 2: Management and Performance Challenges

                     Management and Performance Challenges
               1. Internal Control
               2. Financial Management
               3. Information Technology Security



1. Internal Control
Commission management is responsible for establishing and maintaining a system of
internal controls that ensure effective and efficient operations, reliable financial reporting,
and compliance with laws and regulations. Reviews performed over the past year have
identified weak or non-existent internal controls. The most significant weaknesses
identified were noncompliance with the Federal Manager’s Financial Integrity Act and
OMB Circular A-123, Management’s Responsibility for Internal Control.

Although initially identified in the financial management and procurement areas, the
internal control weaknesses appear to be a systemic problem throughout the Commission.
The Commission has a long standing culture of undocumented and informal processes to
complete daily tasks. Documented and consistent processes and procedures are necessary
to provide a reasonable level of assurance that the organization is operating in an efficient
and cost-effective manner. The most significant challenge will be managing the cultural
changes associated with implementing new systems of internal control throughout the
Commission.


2. Financial Management

As a steward of taxpayer dollars, the Commission is responsible for implementing sound
financial management practices. The Commission has struggled to assure the accuracy of
the annual financial statements and does not have the technical system expertise to
provide managers with timely, reliable, and practical financial information. Deficiencies
in financial management have been previously reported; however, efforts to overcome the
problems have not been fully successful.

The Commission lacks personnel with the necessary technical or analytical skills required
to provide the appropriate reports and documentation to support the annual financial
statement reporting. In addition, the lack of timely and practical financial reporting
makes it difficult for managers to effectively monitor the expenditure of funds, evaluate


                                               2
                      Report Period: October 1, 2010 through March 31, 2011
              U.S. International Trade Commission
                       Inspector General Semiannual Report

program performance, and make informed financial decisions on their programs and
operations.

Budget formulation, budget execution, procurement, accounting, and financial reporting
should be fully integrated with agency operations and include transparent processes that
promote accountability and deter potential fraud, waste, and abuse of agency resources.
The management challenge will be to transform the current approach to financial
management from an accounting exercise to an end-to-end process that provides
transparency and accountability of agency budgetary resources.


3. Information Technology Security
In order to fulfill its core strategic goals, the public and, more specifically, parties
appearing before the Commission must trust the Commission to protect their confidential
and proprietary business information. In the process of conducting investigations, the
Commission regularly collects and uses sensitive confidential and proprietary business
data, including company-specific financial, production, and trade data. The Commission
must ensure that proper security controls are in place to protect and secure sensitive data.
Continuously evolving security threats, the sensitive nature of the Commission’s
investigations, and the use and storage of data on corporate financial performance
indicators make the Commission’s information systems high risk targets for attack. As a
result, the Commission must continue to refine and improve its information security
program.

Use of information technology is an integral component of the Commission’s day-to-day
operations, including communications with the public. The Commission currently does
not have a disaster contingency plan in place to restore data and operations if an event
were to occur that disabled the network. Without a plan, the Commission may not be
able to restore core business functions or minimize the disruption of services. These
weaknesses were identified in a previous audit report and the recommendations remain
outstanding. This management challenge will require dedicated funding, skilled
resources, and time to resolve. The Chief Information Officer has also identified this as
the most critical risk facing the Commission.



             Inspector General Reports Issued this Period
The Inspector General issued 9 reports with a total of 62 recommendations during this
reporting period. The Commission made management decisions on 57 recommendations
and the Inspector General agreed with all these management decisions.




                                              3
                     Report Period: October 1, 2010 through March 31, 2011
                U.S. International Trade Commission
                           Inspector General Semiannual Report

 The Commission completed final action on 43 management decisions from the reports
 issued during this period. A listing of each report by subject matter is provided in Table
 3 below. The key findings of each report are described in the sections that follow.

                                 Table 3: Reports by Subject Matter

                                  Reports by Subject Matter
  Subject           Report                                           Date           Number of
                                          Report Title
  Matter            Number                                          Issued       Recommendations

Financial        OIG-AR-11-02      2010 Financial Statement        11/10/2010              0

Financial        OIG-AR-11-03     Internal Control for 2010        11/10/2010              20
                                  Compliance with Laws and
Financial          OIG-AR-11-04                                    11/10/2010               2
                                  Regulations
                                  Management Letter 2010
Financial          OIG-ML-11-06                                    12/01/2010              25
                                  Financial Statements
IT Security        OIG-AR-11-01 Perimeter Network Security         10/19/2010               2
IT Security        OIG-MR-11-05 FISMA Cyberscope                   11/15/2010               0
IT Security        OIG-AR-11-07 EDIS Security                      12/29/2010               8
Administration OIG-AR-11-08 FOIA Program                           03/14/2011               5
                                  USITC Management and
Administration OIG-MR-11-09                                        11/15/2010               0
                                  Performance Challenges
NOTE: One report, OIG-AR-11-07 has recommendations, that when implemented will result in cost
savings to the Commission. The Inspector General has reported this as an instance where funds could be
put to better use.



 Independent Auditor’s Report on 2010 Financial Statements, OIG-AR-11-02

 RESULT: The audit resulted in a qualified opinion of the Commission’s 2010 financial
 statements.

 The Inspector General engaged the services of an independent accounting firm to perform
 the financial statement audit for fiscal year 2010. The firm audited the balance sheet and
 related statements of net cost, changes in net position, budgetary resources, and custodial
 activity. The auditors were unable to substantiate the amounts associated with
 undelivered orders and the related accounts payable. As a result, the Commission
 received a qualified opinion on their financial statements for the period ending September
 30, 2010.

 This qualified opinion represented an improvement over 2009, when the auditors could
 not provide an opinion on the Commission’s statements and issued a disclaimer.




                                                   4
                        Report Period: October 1, 2010 through March 31, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

Independent Auditor’s Report on Internal Control for 2010 Financial Statements,
OIG-AR-11-03

RESULT: The audit identified four material weaknesses and two significant deficiencies
in the Commission’s internal control over financial reporting.

As part of the financial audit, the Inspector General engaged the services of an
independent accounting firm to review the Commission’s internal control over financial
reporting. The audit identified the following material weaknesses and significant
deficiencies:

Material Weaknesses:
   x Inadequate internal controls over financial reporting.
   x Insufficient monitoring, analysis, and oversight of financial operations.
   x Inadequate controls over undelivered orders, accounts payable, and expenditures.
   x Insufficient resources and personnel with appropriate skill sets.

Significant Deficiencies:
   x Inadequate controls surrounding the identification, recording, and reporting of
        property, plant, and equipment.
   x Inadequate controls surrounding the procurement process.

Three of these conditions had been identified in the 2009 financial statement audit. This
report included 20 new recommendations for the Commission’s management. The
Chairman agreed with the assessment of the identified weaknesses, made management
decisions for all of the recommendations, and is currently in the process of implementing
the management decisions. The Commission completed final action on 15 of the 20
recommendations during this reporting period.


Independent Auditor’s Report on Compliance with Laws and Regulations for 2010
Financial Statements, OIG-AR-11-04

RESULT: The audit identified one instance of non-compliance with laws and
regulations during the 2010 financial statement audit.

As part of the financial audit, the Inspector General engaged the services of an
independent accounting firm to audit the Commission’s compliance with certain laws and
regulations. The results of the testing performed by the audit team identified one instance
of non-compliance related to the Commission’s parking program. Based on the auditor’s
report, the Inspector General issued two recommendations for the Commission. The
Chairman agreed with assessment and completed final action on one of the two
recommendations.

                                              5
                     Report Period: October 1, 2010 through March 31, 2011
             U.S. International Trade Commission
                      Inspector General Semiannual Report

Management Letter for 2010 Financial Statements, OIG-ML-11-06

RESULT: The Management Letter highlighted a number of deficiencies in the
management of the Commission’s financial operations.

The Inspector General engaged the services of an independent certified public accounting
firm to perform an audit of the Commission’s 2010 Financial Statements. The audit team
found numerous control deficiencies and identified the following four areas for
improvement:

   x   Increasing the efficiency and effectiveness of financial operations.
   x   Documenting financial management policies and procedures.
   x   Implementing the requirements of FMFIA and OMB Circular No. A-123.
   x   Strengthening the time and attendance procedures.

The audit resulted in 25 recommendations issued to address the 4 areas for improvement.
The Chairman concurred with the assessment, acknowledged the problem areas, and
made management decisions to implement all 25 recommendations. The Commission
has completed final action on 23 of the 25 recommendations.


FISMA Cyberscope Fiscal Year 2010 Submission, OIG-MR-11-05

RESULT: Of the ten program areas evaluated: five were established, three needed
improvement, and two had not been established.

The Inspector General is required by law to perform an independent evaluation of the
Commission’s compliance with the Federal Information Security Management Act. The
fiscal year 2010 guidance requested an assessment of agency performance in the
following areas:

   x   Certification and Accreditation
   x   Configuration Management
   x   Security Incident Management
   x   Security Training
   x   Remediation/Plans of Actions and Milestones
   x   Remote Access
   x   Identity Management
   x   Continuous Monitoring
   x   Contractor Oversight
   x   Contingency Planning


                                             6
                    Report Period: October 1, 2010 through March 31, 2011
              U.S. International Trade Commission
                       Inspector General Semiannual Report

In our assessment, we reported that the Commission has established and maintained five
programs generally consistent with NIST’s and OMB’s FISMA requirements in the
following areas: Certification and Accreditation, Incident Response & Reporting, Plans
of Actions & Milestones (POA&M), Remote Access, and Oversight of Contractor
Systems. In three areas, we reported that the Commission needs to make significant
improvements: Configuration Management, Security Training, and the Account and
Identity Management Program.

We reported that the Commission does not have programs that perform Contingency
Planning or Continuous Monitoring. The Commission’s lack of Contingency Planning
has been reported since 2005, and the CIO has stated that resolving this issue is a priority
for the coming year. The Commission is currently establishing a Continuous Monitoring
program designed to meet the newest OMB and NIST requirements, by gathering,
correlating, and reporting the current state of the Commission’s security posture.


Audit of the Perimeter Network Security, OIG-AR-11-01

RESULT: The audit determined that the Commission’s perimeter network security was
effective.

We conducted an audit to evaluate the effectiveness of the Commission’s network
security perimeter. An effective perimeter defense is a significant component of a
complete security program designed to prevent attackers from gaining unauthorized
access to Commission resources and exploiting the network.

We attempted to breach the network to gain unauthorized access by performing
penetration tests using public information. The ITCNet’s perimeter defense prevented
our intrusion attempts. The report identified the controls that were working effectively to
help secure the ITCNet’s perimeter. Some of the effective characteristics of ITCNet’s
perimeter defense include the following:

    x    ITCNet’s firewalls effectively limited the exposure of internal systems to the
         Internet.
   x    The Commission used software that quickly detected our scans and blocked
        further scanning attempts.
   x    The Commission’s intrusion detection prevention system used decoy ports to help
        identify attackers.
   x    ITCNet’s remote access services required two-factor authentication.
   x    ITCNet did not allow DNS zone transfers.




                                              7
                     Report Period: October 1, 2010 through March 31, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

The report identified two areas for improvement related to encryption protocols and key
encryption length. The Commission agreed with the recommendations and implemented
both of them before the final report was issued.


Audit of Electronic Document Information System (EDIS) Security, OIG-AR-11-07

RESULT: The audit found that the EDIS web application was not properly secured.

We performed an audit to determine if the Commission’s Electronic Document
Information System (EDIS) was properly secured. EDIS is a web application that serves
as a data repository for all documents filed for investigations conducted by the
Commission. The audit included the related systems and subsystems supporting the
security of the EDIS application.

Our review identified significant vulnerabilities in the five specialized EDIS
workstations. These workstations had direct access to the EDIS infrastructure, which
placed the entire system at risk. The vulnerabilities existed because of the following four
problem areas:

   x   No comprehensive process to patch the specialized EDIS workstations.
   x   Obsolete software applications were installed.
   x   Task specific workstations were not locked down.
   x   Automatic logon was enabled on an administrative account.

We issued eight recommendations to address the four problem areas. The Chairman
concurred with our assessment and acknowledged the risks associated with the
vulnerabilities.

The management decisions made by the Commission represented well thought out
changes to the Commission’s business process. The implementation of these actions will
provide many benefits to the Commission, including improved accuracy of data, faster
access to that data, decreased system complexity, and lower operating costs due to
reduced labor and system requirements. Once final actions are complete, the
Commission will be able to put over $150,000 per year to better use. The Commission
completed two of the eight recommendations during this reporting period.


Audit of Freedom of Information Act Program, OIG-AR-11-08

RESULT: The audit determined the FOIA Program was not effective.

We performed an audit to evaluate the effectiveness of the Commission’s Freedom of
Information Act (FOIA) Program. For purposes of the audit, an effective FOIA Program
                                              8
                     Report Period: October 1, 2010 through March 31, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

was defined as one in which a full and complete response was provided within the
statutory timeframes. An effective FOIA Program is essential to meet the Commission’s
responsibilities under the law and achieve the goals of transparency and openness.
The audit evaluated all FOIA requests received by the Commission in fiscal year 2010
and found:

   x   13% of the documented responses did not fully address the information being
       requested.
   x   35% of the FOIA files did not have adequate documentation to support the
       response provided to the requestor.
   x   28% of the responses were not completed within the mandated 20-day deadline.
   x   17% of the FOIA requests were not accurately categorized on the 2010 FOIA
       Report to Congress.

We identified three problem areas that contributed to the ineffectiveness of the FOIA
Program and issued five recommendations. The Commission agreed with the
assessment, and was in the process of developing management decisions to address the
recommendations at the time the reporting period closed.


USITC Management and Performance Challenges, OIG-MR-11-09

RESULT: The report identified three management and performance challenges for the
Commission in the areas of internal control, financial management, and information
technology security.

The Inspector General issued a report based on an assessment of the management and
performance challenges facing the Commission on October 15, 2010. A summary of the
findings is described in the previous section, “Top Management and Performance
Challenges.”



         Significant Recommendations from Prior Periods
The Inspector General identified three recommendations from prior periods as
significant. The three recommendations are associated with disaster contingency plan
updates, restoration of data, and an alternate processing facility. They are significant
because the Commission may be unable to restore core business functions or minimize
the disruption of services if an event were to occur.




                                              9
                     Report Period: October 1, 2010 through March 31, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

The Inspector General previously reported all three of these recommendations as
significant. A listing of the recommendation along with the report number has been
provided in Table 4.




          External Reviews Completed During This Period
General Accountability Office (GAO) – Review of Inspector General Oversight of
the Commission

In October 2010, the GAO issued a report based on its review of the oversight activities
of the Inspector General at the Commission. Inspectors general should provide
independent and objective oversight; however, GAO found that the Commission relied on
acting and temporary Inspector Generals for an extended period of time. The GAO was
asked to determine (1) the extent of oversight provided by the Commission’s Inspector
General, (2) the budget and staffing resources available for oversight, and (3) how the
role of the Inspector General was addressed in the governance of the Commission. To
accomplish these objectives, the GAO reviewed Inspector General reports and budgets
for fiscal years 2005 through 2009, and relevant policies and procedures regarding
governance and accountability. The GAO also interviewed the Chairman,
Commissioners, current and former acting and temporary IGs, and office directors.

The IG Act requires Inspectors General to provide independent audits and investigations
of the programs, offices, and activities in their respective federal entities; however,
during the five-year period reviewed, the Commission’s Inspector General conducted no
audits and had no investigative case files or investigative reports. The Inspector
General’s oversight activities consisted primarily of monitoring and reviewing the work
of independent public accountants who conducted the annual mandatory audits of the
Commission's financial statements and information security programs. The most recent
peer review (requested by the current Inspector General) of audit quality concluded that
an opinion could not be rendered on the audit organization because no audits had been
conducted by the Office of Inspector General in the past five years.

The IG Act requires the designated federal entity heads to appoint an Inspector General
and provide adequate budgetary resources and sufficient staff. Both the lack of an
appointed Inspector General and constrained budgets and staffing resources for the Office
of Inspector General contributed to the limited oversight of Commission activities. From
November 1, 2005, through December 5, 2009, the Commission relied on acting
Inspectors General and a temporary Inspector General to provide oversight. During this
period the Inspector General position was vacant for 17 months with no acting or
temporary Inspector General.


                                              10
                     Report Period: October 1, 2010 through March 31, 2011
              U.S. International Trade Commission
                       Inspector General Semiannual Report

Between fiscal years 2005 and 2009, the Commission’s budget increased about 23
percent, but the Office of Inspector General’s budget resources remained relatively flat
with funds only available for contracting out audits and two staff positions during the last
four years reviewed. The acting and temporary Inspectors General did not issue
comprehensive audit plans that might have fully communicated their resource needs to
the Commission. The lack of such plans contributed to inadequate IG office resources
and resulted in limited oversight. In fiscal year 2010, the Commission appointed a Senior
Executive Service-level Inspector General to address requirements of the IG Reform Act
of 2008. Also, consistent with the act, the fiscal year 2010 Office of Inspector General
budget was based on discussions with the current Inspector General, which resulted in
increased staffing and was certified by the Inspector General as adequate. The Inspector
General stated that future oversight may require additional resources, which the GAO
believes can be communicated and justified by a staffing analysis as part of the Office of
Inspector General audit planning process.

The IG Act provides each Inspector General with protections of independence including
the authority for access to all entity documents and records. In addition, the Inspector
General is required to refer cases with potential violations of federal criminal law to the
Attorney General. The GAO found instances where the governance structure did not
fully support the temporary Inspector General’s responsibilities. Specifically, during
2009, the temporary Inspector General was unable to obtain timely custody of sensitive
contract documents because USITC's policies and procedures did not clearly provide for
Inspector General custody of such documents. In another instance, due to the lack of a
formal policy or other agreement with the Office of Inspector General, the Chairman
referred the results of a possible criminal investigation to the Department of Justice
without coordinating with the temporary Inspector General, resulting in the potential for
duplication of investigative efforts.

The GAO made a recommendation to the Commission’s Inspector General to prepare a
staffing analysis as part of audit planning to determine the resources needed for effective
oversight. The GAO also made recommendations to the Chairman aimed at clarifying
and communicating the authorities and responsibilities of the Inspector General.


Office of Personnel Management – Delegated Examining Operations

The Office of Personnel Management performed a review of the Commission’s delegated
competitive examining operations. The review evaluated 25 criteria to determine the
extent the Commission’s delegated examining activities met merit system principals and
applicable laws and regulations, to include the Veterans Preference Act of 1944.

The Commission met the anticipated results in 15 of the assessment areas and partially
met the standards in an additional 5 areas. The report identified one area involving the
review of certificate documentation in which the Commission did not meet the criteria.

                                              11
                     Report Period: October 1, 2010 through March 31, 2011
              U.S. International Trade Commission
                       Inspector General Semiannual Report

The remaining four assessment areas were determined to be not applicable to the
Commission.

The report identified 10 recommendations to address the 6 instances where
Commission’s delegated competitive examining operations did not fully meet the
standard.


U.S. Equal Employment Opportunity Commission – EEO Program Review

The Equal Employment Opportunity Commission (EEOC) performed an evaluation of
the Commission’s progress in becoming a model Equal Employment Opportunity (EEO)
workplace. The evaluation measured the extent the Commission meets the six essential
elements of a model EEO program, as defined by Title VII of the Civil Rights Act of
1964, and Section 501 of the Rehabilitation Act of 1973, as amended.

The report acknowledged that the Commission had attained maximum efficiency in
Element 5, regarding the ability to resolve most workplace issues through informal
methods. A summary of the findings from each element is provided below.

Element 1: Demonstrated Commitment from Agency Leadership:
This element requires agency heads to issue and disseminate policy statements expressing
their commitment to EEO and a workplace free of discriminatory harassment. The
EEOC found that the Commission’s EEO policies were not up to date, and provided two
recommendations to address the findings.

Element 2: Integration of EEO into the Agency’s Strategic Mission:
This element emphasizes the role of the EEO office as a resource to agency managers to
provide direction, guidance, and monitoring of key activities to achieve a diverse
workplace. The EEOC found that the EEO Director had not presented a “state of the
agency” briefing to the Chairman. The EEOC also found that the EEO Director was not
involved in matters involving personnel and managerial decisions. The EEOC provided
two recommendations for the Commission to address these findings.

Element 3: Management and Program Accountability:
This element emphasizes accountability in the relationship between EEO and other
offices for the effective implementation and management of the Commissions programs.
This particular element focused on EEO and Human Resources. The EEOC found that
the Commission’s reasonable accommodations procedures were not up to date and
provided three recommendations to address this finding.

Element 4: Proactive Prevention of Unlawful Discrimination:
This element focuses on the Commissions ongoing obligation to prevent discrimination
on the bases of race, color, national origin, religion, sex, age, reprisal, disability and
                                              12
                     Report Period: October 1, 2010 through March 31, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

genetic information, and to eliminate barriers that impede free and open competition in
the workplace. The EEOC made three recommendations to address the findings.

Element 5: Efficiency:
This element addresses the requirement to have a fair and efficient dispute resolution
process. The EEOC found that the Commission has attained a maximum efficiency in
the counseling state of the EEO administrative complaint process and provided no
recommendations.

Element 6: Responsiveness and Legal Compliance:
This element addresses compliance with laws and regulations, timeliness of submitting
EEO reports, and compliance with EEOC orders for corrective action. The EEOC had
one recommendation in this area regarding posting a report on the Commission’s external
website.

The final report was issued December 15, 2010 and contained eleven recommendations
to improve five of the six essential elements. The most significant recommendations
were in Element 4: Proactive prevention of unlawful discrimination, specifically
focusing on Hispanic males, female employees in the senior grade levels, and employees
with targeted disabilities



    Status of Actions Related to External Reviews Completed
                      During Prior Periods
Office of Personnel Management – Human Resources Review

The Office of Personnel Management completed an external review of the Commission’s
human resource program on August 26, 2009. The purpose of the review was to evaluate
the human capital program at the Commission. This evaluation resulted in 83
recommendations being made to the Commission to ensure compliance with laws and to
strengthen the management and administration of the Commission’s human capital
program. The Commission made management decisions to implement all of the
recommendations and completed final action on 9 recommendations this reporting
period, bringing the total recommendations closed to 59 overall. The Commission is
working on implementing the remaining 24 management decisions.


Office of Personnel Management – Personnel Security and Suitability Program

The Office of Personnel Management performed a review of the Commission’s Personnel
Security and Suitability Program. The review involved examining and measuring key
program areas including the position designation processes, investigation request
                                              13
                     Report Period: October 1, 2010 through March 31, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

processes, adjudication processes, and processes supporting reform goals and reciprocity.
The final report identified 22 recommendations for the Commission. The Commission
made management decisions to implement the recommendations. The Commission has
completed final action on 20 recommendations this reporting period.



   Council on Inspectors General for Integrity and Efficiency
                          Activities
The Inspector General has actively participated in meetings and supported the efforts of
the Council on Inspectors General for Integrity and Efficiency (CIGIE). During this
reporting period, the Inspector General began serving as the CIGIE liaison to the Chief
Information Officers Council.

The Office of the Inspector General staff have been involved in the community by
volunteering to serve as members on various working groups and committees that address
cross-cutting issues such as, knowledge management, cloud computing, investigations,
cyber security, new media, small agencies concerns, and legislative issues.



 Federal Financial Management Improvement Act Reporting
The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report “instances and reasons” when
the agency has not met intermediate target dates established in a remediation plan to
bring the agency’s financial management system into substantial compliance with the
FFMIA. The Commission is not subject to the FFMIA; however, it voluntarily seeks to
comply with most of its requirements. During this reporting period, there were no events
giving rise to a duty to report under FFMIA.


                                     Peer Review
The last peer review of the Office of Inspector General was for the period ending
September 30, 2009 and the report was issued on May 27, 2010. All recommendations
made during the review were implemented by September 16, 2010. The next audit peer
review has been scheduled by CIGIE and will cover the period through September 2012.




                                              14
                     Report Period: October 1, 2010 through March 31, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

Table 4: Prior Significant Recommendations Where Corrective Action Has Not Been Completed

                     Prior Significant Recommendations
               Where Corrective Action Has Not Been Completed
 Report Number                                     Recommendation
                     Develop, document, and test an agency-wide Continuity of Operations
                     Program (COOP) plan in accordance with Federal Preparedness Circular
  OIG-AR-04-05
                     (FPC) 65, Federal Executive Branch Continuity of Operations, and NIST
                     SP 800-34 guidelines.
                     Ensure major applications and general support system contingency plans
  OIG-AR-04-05
                     are updated and tested in accordance with NIST SP-800-34 guidelines.
                     With respect to each mission-critical application and general support
                     system, determine if an alternate processing facility is necessary and
  OIG-AR-04-05       identify the respective facility. At this alternate facility, contingency
                     plans should be tested and arrangements made for its use in the event of a
                     major interruption or disaster.


                  Table 5: Reports with Questions and Unsupported Costs

                Reports with Questioned and Unsupported Costs
                                Section 5(a)8
                                         Number of          Questioned       Unsupported
              Description
                                          Reports             Costs             Costs
     Reports for which no
     management decision has been
                                                0                $0               $0
     made by the commencement of
     the reporting period.
     Reports issued during the                  9
                                                                 $0               $0
     reporting period.
                           Subtotals            9                $0               $0
     Reports for which a
     management decision was
                                                8                $0               $0
     made during the reporting
     period.
         x Dollar value of
                                                0                $0               $0
             disallowed costs.
         x Dollar value of allowed
                                                0                $0               $0
             costs.
     Reports for which no
     management decision has been
                                                1                $0               $0
     made by the end of the
     reporting period.



                                              15
                     Report Period: October 1, 2010 through March 31, 2011
        U.S. International Trade Commission
                  Inspector General Semiannual Report

      Table 6: Reports w/ Recommendations that Funds be Put to Better Use

  Reports with Recommendations that Funds be Put to Better Use
                        Section 5(a)9
                                                     Number of          Funds Put to
                  Description
                                                      Reports            Better Use
Reports for which no management decision has
                                                                              0
been made by the commencement of the                        0
reporting period.
Reports issued during the reporting period.                 9            $150,000
                                        Subtotals           9            $150,000
Reports for which a management decision was
                                                            8
made during the reporting period.
    x Dollar value of recommendations agreed
                                                                         $150,000
        to by management.
    x Dollar value of recommendations not
                                                                             $0
        agreed to by management.
Reports for which no management decision has
                                                            1                $0
been made by the end of the reporting period.
                                        Subtotals           9            $150,000




                                         16
                Report Period: October 1, 2010 through March 31, 2011
                 U.S. International Trade Commission
                             Inspector General Semiannual Report

                        Table 7: Status of Reports Issued Without Final Action

                    Status of Reports Issued Without Final Action
                                        This Reporting Period
                                                               Decisions
                                                                                   Final     Action
                                         # of      Mgt.           IG
              Report Title                                                        Action      Not
                                         Recs.   Decisions     Disagrees
                                                                                 Complete   Complete
                                                                 With
1    Report on Internal Control           20           20           0               15         5
     Report on Compliance with
2                                          2           2            0               1          1
     Laws and Regulations
     Management Letter 2010
3                                         25           25           0               23         2
     Financial Statement
4    EDIS Security                        8            8            0               2          6
5    FOIA Program                         5            0*           0               0          5
             Subtotal Current Period      60           55           0               41         19
                                    Prior Reporting Periods
                                                               Decisions
                                                                                   Final     Action
                                         # of      Mgt.           IG
              Report Title                                                        Action      Not
                                         Recs.   Decisions     Disagrees
                                                                                 Complete   Complete
                                                                 With
     Federal Information Security
     Management Act Fiscal Year
1                                         14           14           0               11         3
     2004 Performance Audit,
     09/27/2005
                Subtotal Prior Period     14           14           0               11         3

    *The final report for the FOIA Program was issued on March 14, 2011; management
    decisions were due after this reporting period closed.




                                                  17
                         Report Period: October 1, 2010 through March 31, 2011
             U.S. International Trade Commission
                                        Appendix A

Appendix A: Chairman’s Statistical Tables
                           Table A: Reports with Disallowed Costs

  Total Number of Reports and the Dollar Value of Disallowed Costs
                                                            Number
                                                                        Dollar Value of
                     Description                              of
                                                                        Disallowed Costs
                                                            Reports
 Reports issued during the period.                              9              $0
 Reports for which final action had not been taken by
                                                                7              $0
 the commencement of the reporting period.
 Reports on which management decisions were made
                                                                8              $0
 during the reporting period.
 Reports for which final action was taken during the
                                                               10              $0
 reporting period.
     x Dollar value of disallowed costs, recovered                             $0
         by management.
     x Dollar value of disallowed costs written off                            $0
         by management.
 Reports for which no final action has been taken by
                                                                6              $0
 the end of the reporting period.

           Table B: Reports with Recommendations that Funds be Put to Better Use


    Reports with Recommendations that Funds be Put to Better Use
                                                             Number
                                                                          Funds Put to
                     Description                               of
                                                                           Better Use
                                                             Reports
 Reports for which final action had not been taken by the
                                                                    7           $0
 commencement of the reporting period.
 Reports on which management decisions were made
                                                                    8        $150,000
 during the reporting period.
 Reports for which final action was taken during the
                                                                10              $0
 reporting period including:
     x Dollar value of recommendations that were                                $0
         actually completed.
     x Dollar value of recommendations that
         management has subsequently concluded                                  $0
         should not or could not be completed.
 Reports for which no final action has been taken by the
                                                                    6           $0
 end of the reporting period.


                                             A-1

                        Appendix A: Chairman’s Statistical Tables
         U.S. International Trade Commission
                                Appendix A

         Table C: Prior Year Management Decisions Without Final Action

Prior Year Audit Reports On Which Management Decisions Have Been
             Made but Final Action has Not Been Taken
                                              Funds Put        Reason Final
                             Disallowed
 Audit Report    Date Issued                   to Better      Action has Not
                               Costs
                                                  Use          Been Taken
                                                            Provided in Section 3
OIG-AR-04-05     09/27/2005         $0            $0         of the Chairman’s
                                                                    letter.




                                     A-2

                 Appendix A: Chairman’s Statistical Tables
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
